    DEPARTMENT OF HEALTH &. HUMAN SERVICES                                     Office of Inspector General


                                                                               Washington, D.C. 20201

                                                  JUL 2 9 2009



TO:            Charlene Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          Daniel R. Levinson   ~ fd. ~
               Inspector General


SUBJECT:       Review of the Calculation of Additional Medicaid Funding Awarded Under the
               American Recovery and Reinvestment Act (A-09-09-00080)


The attached final report provides the results of our review of the Centers for Medicare
& Medicaid Services' (CMS) calculation of additional Medicaid funding awarded under the
American Recovery and Reinvestment Act (ARRA) of 2009, P.L. No. 111-5, enacted
February 17,2009.

The ARRA provides fiscal relief to States to protect and maintain State Medicaid programs in a
period of economic downturn. For the recession adjustment period (October 1,2008, through
December 31, 2010), the ARRA provides approximately $87 billion in additional Medicaid
funding based on temporary increases in States' Federal medical assistance percentages (FMAP).

The Office of the Assistant Secretary for Planning and Evaluation (ASPE) calculates the
temporary FMAP increases quarterly for the 50 States and the District of Columbia. ASPE
provides the increased FMAPs to CMS, which uses them to determine the amount of Federal
funds to award to States through its Medicaid grant process. For the first two quarters of Federal
fiscal year (FY) 2009, CMS made available to States, beginning February 25, 2009,
approximately $15.2 billion in additional Medicaid funding based on the increased FMAPs.

Our objective was to determine whether CMS calculated the additional Medicaid funding
awarded under the ARRA for the first two quarters ofFY 2009 in accordance with Federal law.

For the first two quarters ofFY 2009, CMS calculated the additional Medicaid funding awarded
under the ARRA in accordance with Federal law. Specifically, for each State and the District of
Columbia, CMS used the reported actual or estimated expenditures, deducted the expenditures
identified in section 5001(e) ofthe ARRA (to which the increased FMAPs do not apply) if the
State reported the expenditures, and mUltiplied the remaining expenditures by the correct
percentage-point increase in the FMAP. Consequently, this report contains no recommendations.
Page 2 – Charlene Frizzera


Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov.
Please refer to report number A-09-09-00080 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF THE CALCULATION
  OF ADDITIONAL MEDICAID
  FUNDING AWARDED UNDER
  THE AMERICAN RECOVERY
   AND REINVESTMENT ACT




                    Daniel R. Levinson
                     Inspector General

                        July 2009
                      A-09-09-00080
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act (ARRA) of 2009, P.L. No. 111-5, enacted
February 17, 2009, provides fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period (October 1,
2008, through December 31, 2010), the ARRA provides approximately $87 billion in additional
Medicaid funding based on temporary increases in States’ Federal medical assistance
percentages (FMAP). The Federal Government pays its share of a State’s medical assistance
expenditures under Medicaid based on the FMAP. Section 5001(e) of the ARRA states that the
temporarily increased FMAPs do not apply to Medicaid disproportionate share hospital,
Children’s Health Insurance Program, or Temporary Assistance for Needy Families
expenditures; Medicaid expenditures for individuals made eligible through income eligibility
expansions after July 1, 2008; or expenditures subject to an enhanced FMAP.

The Department of Health and Human Services, Office of the Assistant Secretary for Planning
and Evaluation (ASPE), calculates the temporary FMAP increases quarterly for the 50 States and
the District of Columbia. ASPE provides the increased FMAPs to the Centers for Medicare
& Medicaid Services (CMS), which uses them to determine the amount of Federal funds to
award to States through its Medicaid grant process. For the first two quarters of Federal fiscal
year (FY) 2009, CMS made available to States, beginning February 25, 2009, approximately
$15.2 billion in additional Medicaid funding based on the increased FMAPs.

Pursuant to section 1903(d)(1) of the Social Security Act, CMS calculates Medicaid funding
quarterly based on estimated Medicaid expenditures reported by each State. For the first quarter
of FY 2009, most States had reported actual expenditures by the time the additional funding was
calculated; for the second quarter of FY 2009, States had reported only estimated expenditures.

OBJECTIVE

Our objective was to determine whether CMS calculated the additional Medicaid funding
awarded under the ARRA for the first two quarters of FY 2009 in accordance with Federal law.

SUMMARY OF RESULTS

For the first two quarters of FY 2009, CMS calculated the additional Medicaid funding awarded
under the ARRA in accordance with Federal law. Specifically, for each State and the District of
Columbia, CMS used the reported actual or estimated expenditures, deducted the expenditures
identified in section 5001(e) of the ARRA if the State reported the expenditures, and multiplied
the remaining expenditures by the correct percentage-point increase in the FMAP. Consequently,
this report contains no recommendations.




                                                i
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicaid Program..........................................................................................1
              Temporary Increases in Federal Medical Assistance Percentages ................1
              Calculation of Additional Medicaid Funding ................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3
               Objective ........................................................................................................3
               Scope..............................................................................................................3
               Methodology ..................................................................................................3

RESULTS OF REVIEW .....................................................................................................4

          EXPENDITURES DEDUCTED ...............................................................................4

          ADDITIONAL FUNDS AWARDED .......................................................................4

APPENDIX

          ADDITIONAL MEDICAID FUNDING FOR THE FIRST TWO QUARTERS OF
           FEDERAL FISCAL YEAR 2009




                                                                    ii
                                           INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. 1 To
ensure that adequate funds are available for the efficient operation of the Medicaid program,
section 1903(d)(1) of the Act requires the Secretary of Health and Human Services to estimate
quarterly each State’s Federal share based on the estimated expenditures reported by the State.

Temporary Increases in Federal Medical Assistance Percentages

The American Recovery and Reinvestment Act (ARRA) of 2009, P.L. No. 111-5, enacted
February 17, 2009, provides fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period (October 1,
2008, through December 31, 2010), the ARRA provides approximately $87 billion in additional
Medicaid funding based on temporary increases in States’ FMAPs. Section 5000 of the ARRA
provides these increases to help avert cuts in health care provider payment rates, benefits, or
services and to prevent changes in income eligibility requirements that would reduce the number
of individuals eligible for Medicaid.

Section 5001(e) of the ARRA states that the temporarily increased FMAPs do not apply to
Medicaid disproportionate share hospital (DSH), Children’s Health Insurance Program, or TANF
expenditures; Medicaid expenditures for individuals made eligible through income eligibility
expansions after July 1, 2008; or expenditures subject to an enhanced FMAP.

The Department of Health and Human Services, Office of the Assistant Secretary for Planning
and Evaluation (ASPE), calculates the temporary FMAP increases quarterly for the 50 States and
the District of Columbia. In a previous audit, we found that ASPE calculated the increased




1
 The FMAP is also used to determine the Federal Government’s share of certain child support enforcement costs,
Temporary Assistance for Needy Families (TANF) contingency funds, a portion of the Child Care and Development
Fund, and foster care and adoption assistance payments.


                                                      1
FMAPs for the first two quarters of Federal fiscal year (FY) 2009 in accordance with applicable
provisions of the ARRA. 2

Calculation of Additional Medicaid Funding

ASPE provides the increased FMAPs to CMS, which uses them to determine the amount of
Federal funds to award to States through its Medicaid grant process. For the first two quarters of
FY 2009, CMS made available to States, beginning February 25, 2009, approximately
$15.2 billion in additional Medicaid funding based on the increased FMAPs.

To calculate the additional Medicaid funding for each State, CMS uses information from its
Medicaid Budget and Expenditure System (MBES). The MBES contains the actual and
estimated Medicaid expenditures reported by States on Forms CMS-64, “Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program,” and CMS-37, “Medicaid
Program Budget Report,” respectively. For the first quarter of FY 2009, most States had
reported actual expenditures by the time the additional funding was calculated; for the second
quarter of FY 2009, States had reported only estimated expenditures.

For the first quarter of FY 2009, CMS used actual expenditures from the MBES for each of 44
States and the District of Columbia and used estimated expenditures from the MBES for each of
6 States that had not yet reported actual expenditures. CMS then deducted reported expenditures
identified in section 5001(e) of the ARRA (to which the increased FMAPs do not apply) and
multiplied the remaining expenditures by the percentage-point increase in the FMAP. The
percentage-point increase is the difference between the State’s FMAP before enactment of the
ARRA and the increased FMAP.




For the second quarter of FY 2009, CMS used estimated expenditures from the MBES for each
of the 50 States and the District of Columbia, deducted estimated Medicaid DSH expenditures,
and multiplied the remaining expenditures by the percentage-point increase in the FMAP. CMS
could not deduct the other types of section 5001(e) expenditures to which the increased FMAPs
do not apply because States do not report these expenditures separately on Form CMS-37.




2
“Review of the Calculations of Temporary Increases in Federal Medical Assistance Percentages Under the
American Recovery and Reinvestment Act” (A-09-09-00075, issued May 22, 2009).


                                                      2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CMS calculated the additional Medicaid funding
awarded under the ARRA for the first two quarters of FY 2009 in accordance with Federal law.

Scope

We reviewed CMS’s calculation of the additional $15.2 billion in Medicaid funding for the
50 States and the District of Columbia for the first and second quarters of FY 2009 (October 1,
2008, through March 31, 2009). We did not verify the accuracy of the data in the MBES. We
limited our review of internal controls to obtaining an understanding of CMS’s policies and
procedures related to calculating the additional Medicaid funding awarded under the ARRA.

We performed our fieldwork in April and May 2009 at CMS in Baltimore, Maryland.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal law,

   •    discussed with CMS officials the methodology for calculating the additional Medicaid
        funding based on the increased FMAPs,

   •    validated the arithmetic of CMS’s calculation of the additional Medicaid funding,

   •    verified that CMS used actual or estimated expenditures from the MBES,

   •    determined whether CMS deducted the expenditures identified in section 5001(e) of the
        ARRA,

   •    verified that CMS used the correct percentage-point increase in the FMAP for each State
        and the District of Columbia, and

   •    verified that the amounts calculated by CMS had been awarded to the 50 States and the
        District of Columbia by reviewing the grant award documents.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                3
                                   RESULTS OF REVIEW

For the first two quarters of FY 2009, CMS calculated the additional Medicaid funding awarded
under the ARRA in accordance with Federal law. Specifically, for each State and the District of
Columbia, CMS used the reported actual or estimated expenditures from the MBES, deducted
the expenditures identified in section 5001(e) of the ARRA if the State reported the expenditures,
and multiplied the remaining expenditures by the correct percentage-point increase in the FMAP.
Consequently, this report contains no recommendations.

EXPENDITURES DEDUCTED

For the second quarter of FY 2009, CMS deducted only estimated Medicaid DSH expenditures
when calculating the additional Medicaid funding because States do not separately report on
Form CMS-37 the other types of section 5001(e) expenditures to which the increased FMAPs do
not apply. CMS officials informed us that CMS would exclude from reimbursement the other
types of expenditures when States submit actual second-quarter expenditures on Form CMS-64.
We noted that the other types of expenditures that CMS was able to deduct for the first quarter of
FY 2009 were immaterial when compared with the total Medicaid expenditures for the quarter.

For the third quarter of FY 2009 and subsequent quarters, CMS officials informed us that they
had requested States to report all types of estimated section 5001(e) expenditures. CMS intends
to deduct these expenditures in its award calculations.

ADDITIONAL FUNDS AWARDED

CMS awarded the additional Medicaid funding to the 50 States and the District of Columbia in
two separate grants for the first and second quarters of FY 2009. The total amounts awarded for
the two quarters ranged from approximately $15.9 million for one State to approximately
$2.1 billion for another State. See the Appendix for a list of the additional Medicaid funding
awarded to the 50 States and the District of Columbia for the first two quarters of FY 2009.




                                                4
APPENDIX
                                                                             APPENDIX

ADDITIONAL MEDICAID FUNDING FOR THE FIRST TWO QUARTERS
              OF FEDERAL FISCAL YEAR 2009

                        First Quarter       Second Quarter          Total
          State
                        Grant Award          Grant Award         Grant Award
 Alabama                      $81,615,779          $88,169,539      $169,785,318
 Alaska                        20,467,177           21,106,952         41,574,129
 Arizona                      168,982,012          182,499,055        351,481,067
 Arkansas                      51,224,023           58,650,425        109,874,448
 California                   833,039,312        1,158,868,222      1,991,907,534
 Colorado                      71,267,921           69,643,662        140,911,583
 Connecticut                  148,958,969          125,659,208        274,618,177
 Delaware                      29,620,832           31,031,709         60,652,541
 District of Columbia          28,835,182           30,046,848         58,882,030
 Florida                      363,105,761          453,921,134        817,026,895
 Georgia                      170,032,100          169,576,097        339,608,197
 Hawaii                        34,405,614           36,167,419         70,573,033
 Idaho                         26,069,571           27,368,640         53,438,211
 Illinois                     200,565,668          270,336,568        470,902,236
 Indiana                      118,168,075          128,995,328        247,163,403
 Iowa                          43,385,452           45,712,724         89,098,176
 Kansas                        36,723,291           34,851,936         71,575,227
 Kentucky                     112,864,203           92,436,999        205,301,202
 Louisiana                    115,442,032          114,517,056        229,959,088
 Maine                         48,003,854           46,543,348         94,547,202
 Maryland                     136,990,226          138,518,372        275,508,598
 Massachusetts                325,874,353          268,382,826        594,257,179
 Michigan                     235,765,917          228,598,392        464,364,309
 Minnesota                    149,716,575          206,474,569        356,191,144
 Mississippi                   62,985,248           74,076,103        137,061,351
 Missouri                     134,227,955          136,300,910        270,528,865
 Montana                       15,069,511           19,179,435         34,248,946
 Nebraska                      22,473,769           25,369,594         47,843,363
 Nevada                        44,104,262           46,206,228         90,310,490
 New Hampshire                 16,004,441           15,526,846         31,531,287
 New Jersey                   182,669,195          179,565,311        362,234,506
 New Mexico                    45,216,717           50,022,990         95,239,707
 New York                     968,018,240        1,102,814,358      2,070,832,598
 North Carolina               226,417,227          213,152,932        439,570,159
 North Dakota                   9,218,829            9,618,464         18,837,293
 Ohio                         247,570,548          252,599,088        500,169,636
 Oklahoma                      87,713,751           87,044,262        174,758,013
 Oregon                        74,198,292           81,628,317        155,826,609
 Pennsylvania                 331,224,582          349,054,339        680,278,921
 Rhode Island                  48,131,492           45,377,862         93,509,354
 South Carolina                88,487,607           84,471,061        172,958,668
 South Dakota                   9,929,717           10,566,598         20,496,315
 Tennessee                    174,710,630          156,573,414        331,284,044
 Texas                        443,046,843          509,139,578        952,186,421
 Utah                          25,173,065           28,189,718         53,362,783
 Vermont                       23,201,237           22,263,095         45,464,332
 Virginia                     124,651,901          128,007,220        252,659,121
 Washington                   165,689,853          173,640,864        339,330,717
 West Virginia                 36,994,424           39,485,175         76,479,599
 Wisconsin                     72,737,967           90,371,696        163,109,663
 Wyoming                        8,497,819            7,424,314         15,922,133
     Total                 $7,239,489,021       $7,965,746,800    $15,205,235,821
